                                                                          WR-IS-MOA-OO 19-2009
                     United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240




                                                                                 SEP 2 9 2009

Memorandum

To:            Debra E. Sonderman
               Director, Office of Acquisition and Property Management

From:          Kimberly Elmore
               Assistant Inspector General , Office of Audits, Inspections and E

Subject:       Follow-up to OIG ' s 2008 evaluation report, "Interior Misstated Achievement of
               Small Business Goals by Including Fortune 500 Companies. (Report No. W -EV-
               MOI-0003-2008)"

        In July 2008 , the Office of Inspector General (OIG) reported that fiscal year (FY) 2006-
2007 data obtained from the Federal Procurement Data System - Next Generation (FPDS-NG)
contained contracts to large businesses that had been flagged as small business contracts by
contracting officers (see attached Report No. W-EV-MOI-0003-2008). Among those that had
been erroneously flagged as small businesses were well-known Fortune 500 companies such as
Dell , Home Depot, Waste Management, and Xerox.

        In response to the July 2008 OIG report, the Department stated that it would begin
reviewing FPDS-NG data as part of its internal control reviews in FY 2009 , with a targeted
completion date of August 31 , 2009. When completed, we respectfully request that you provide
us with a copy of the FY2009 internal control reviews of FPDS-NG data. The purpose of this
inspection is to assist the Department in improving the accuracy of FPDS-NG reporting.

Inspection Results

        In August 2009 , we reviewed FPDS-NG contract entries that were designated as small
business actions within FY 2009 data (see Appendix 3 for the methodology). We found that
contracting officers continue to flag contracts to large business as small business contracts. In
fact, FY 2009 contracts were incorrectly reported as small business contracts for some of the
same Fortune 500 companies identified in the FY 2006-2007 data, namely Dell, Home Depot,
Waste Management, and Xerox.
         Other Fortune 500 companies that were identified in the FY 2009 data as having been
incorrectly reported are AT&T, Apple, FedEx, General Electric, IBM, Sun Microsystems, and
Verizon (see Appendix 1). These companies are so large that there is no question that they do
not meet the size standards for a small business in any industry. In addition to these large
businesses, a number of contracts to government entities, such as states, cities, counties,
university, airports, detention centers, and the U.S.
Postal Service were flagged as small business                        2009 Fortune 500
actions (see Appendix 2). By their very definition,                                         Revenue
these government entities do not qualify as small        Company                Rank ($ billions)
businesses. Although not shown in the contract           General Electric           5          183.2
actions listed in the appendices, we also noted that     AT&T                       8          124.0
contract actions awarded to The Nature                   IBM                       14         103.6
Conservancy and Ducks Unlimited, two large non-
                                                         Verizon                   17           97.4
profits, were incorrectly reported as small business
                                                         FedEx                     59           38.0
actions. Neither non-profit is a small business
according to their certifications in the Online          Apple                     71           32.5
Representations and Certifications Application           Sun Microsystems         187           13.9
(ORCA).

       Although they may not be household names, we identified other large businesses that
were incorrectly flagged as small businesses:

      ASAP Software Express – Subsidiary of Dell Inc., No. 33 among the Fortune 500 and
       one of the world’s leading brands.

      CDW – Leading provider of technology solutions for business, government, and
       education, with net sales of over $8 billion in 2008.

      IKON Office Solutions Inc. – Subsidiary of Ricoh, a $22 billion global technology
       innovator.

      Nortel Government Solutions – Division of Nortel, a leader in delivering
       communications capabilities, with revenues of over $10 billion in 2008.

      Shimadzu Scientific Instruments, Inc. – Manufacturer with over 9,000 employees and
       net sales of $2.9 billion in 2008.

      Tandberg Inc. – Leading global provider of video conferencing products and services in
       more than 90 countries worldwide.

      United Rentals – Largest equipment rental company in the world, with about 8,600
       employees and over 580 rental locations throughout the United States, Canada, and
       Mexico.

      VMware – Global leader in computer virtualization solutions, with revenues of $1.9
       billion in 2008.

                                                 2
        A simple check on ORCA or the Central Contractor Registration (CCR) would have
shown that these large businesses and government entities are not eligible small businesses.
From the results of this inspection, we found that contracting officers are still failing to take this
basic step when reporting contract actions in FPDS-NG.

        In total, our inspection of FY 2009 contract entries designated as small business actions
shows that 61 contract actions to large businesses, totaling about $1.8 million, were incorrectly
reported as small business contracts. In addition, 150 contract actions to government entities,
totaling over $3.2 million, were incorrectly reported as small business contracts. While the total
number of contract actions found to be in error is relatively small compared to the total number
of small business contract actions in FY 2009 (211/50,568 = 0.4%), the fact that these errors
continue to exist casts doubt on the validity of the small business contracting achievements being
reported by the Department.

       The scope of this inspection was limited to visually scanning the list of small business
contracts for those that were awarded to business and government entities that are obviously not
small businesses; a more extensive review would uncover additional contracts that had been
incorrectly categorized and reported as small business contracts.

Recommendations

       We recommend the following:

   1. Correct the contract actions identified in this report that were incorrectly flagged as small
      business and report the corrections to any previously submitted small business
      achievement reports.

   2. Reemphasize to contracting officers, through training or other means as appropriate, the
      importance of correctly reporting contract actions in FPDS-NG.

       We ask that you apprise us within 30 days of the actions you take or plan to take in
response to this report. If you have any questions, please call me at (202) 208-5745.

Attachment




                                                   3
Appendix 1: Large Businesses Reported as “Small Business” in FPDS-NG


                                                      DUNS      No. of     Total
Company Name                                         Number     Actions   Obligated
Allied Waste North America, Inc.                    964034185         1        $5,000
Apple Inc.                                          060704780         1        $2,800
ASAP Software Express (Dell subsidiary)             121482657         3      $13,384
AT&T Corp.                                          621599893         1        $7,546
CDW Government Inc.                                 026157235         3          $575
Dell Computer Corporation                           114315195         2          $409
Federal Express Corporation (FedEx)                 185743655         1          $500
Federal Express Corporation                         610703282         1        $2,550
General Electric Company (GE)                       197968550         1        $3,570
Home Depot, Inc.                                    072271711         1            $0
IKON Office Solutions, Inc. (Ricoh subsidiary)      959124272         2        $3,015
IKON Office Solutions, Inc.                         609263728         1      $19,089
IKON Office Solutions, Inc.                         031435915         1        $8,500
IKON Office Solutions, Inc.                         602494429         2          $792
IKON Office Solutions, Inc.                         043964519         4        $9,070
International Business Machines Corporation (IBM)   060790131         1      $19,276
Nortel Government Solutions Inc.                    151770955        10   $1,563,337
Residence Inn by Marriott                           825901460         8      $13,230
Shimadzu Scientific Instruments, Inc.               080549942         4      $60,067
Sun Microsystems, Inc.                              092249577         1        $4,243
Tandberg, Inc.                                      961220415         1      $42,916
United Rentals, Inc.                                176333961         1        $3,782
Verizon Federal Inc.                                178041406         1        $3,025
VMWare, Inc.                                        048870740         1            $0
Waste Management Incorporated                       194672085         5        $7,155
Waste Management Incorporated                       096584198         1         -$677
Xerox Corporation                                   153872643         1        $1,000
Xerox Corporation                                   607932829         1       -$2,144
Totals:                                                              61   $1,792,010




                                                4
Appendix 2: U.S. Government Entities Reported as “Small Business” in FPDS-NG


                                                 DUNS      No. of     Total
U.S. Government Entities                        Number     Actions   Obligated
Arizona State University                       943360412         1       -$7,490
California Water Resources Control Board       808321913         1        $2,400
City of Albuquerque                            149716771         1       -$4,963
City of Carson City                            073787152         2        $5,000
City of Farmington                             080376346         1      $13,000
City of Flagstaff                              069402704         1      $17,363
City of Forks                                  013510255         2        $2,586
City of Grand Coulee                           032133480         2      $28,350
City of Kanab                                  052293362         1            $0
City of Marsing                                096215319         2      $60,000
City of Middleton                              017194601         1        $1,548
City of Roswell                                030172910         2            $0
City of Twin Falls                             959433640         1            $0
City of Winnemucca                             043859255         2            $0
County of Caddo                                055180053         2      $24,860
County of Cascade                              005524850         2     $172,400
County of Coconino                             838150878         6     $371,425
County of Douglas                              010984979         1            $0
County of Duchesne                             805983756         6     $175,000
County of Elko                                 097761209         5        $4,500
County of Gallatin                             174978999         2      $45,305
County of Garfield                             014842983         2      $29,105
County of Grady                                806238143         2     -$50,573
County of Hill                                 102224925         1       -$5,000
County of Humboldt                             076130863         5      $39,000
County of Humboldt                             199625666         2        $5,000
County of Inyo                                 010706687         1            $0
County of Knox                                 020187522         3      $70,000
County of Lane                                 030786248         2      $30,000
County of Lincoln                              625315270         1        $6,250
County of Lincoln                              070052444         3     $210,000
County of Lincoln                              041673419         3        $5,000
County of Lincoln                              050740539         2     $298,631
County of Mc Kinley                            848652483         6     $543,400
County of Nez Perce                            072082402         6        $1,302
County of Otero                                051073658         4     $259,463
County of Pennington                           783096931         4      $50,000
County of Sacramento                           114073344         1          $259

                                           5
County of Shasta                                          107379997     1       $3,978
County of Uintah                                          050534361     1           $0
County of Washoe                                          609738455     5     $252,900
County of Yavapai                                         031385748     4     $123,000
Eastern Shore of Virginia Chamber of Commerce             074949892     1       $5,000
Idaho Department of Water Resources                       141626130     1       $6,090
Lake City Hinsdale County Chamber of Commerce             928953702     1           $0
Lake Region Law Enforcement Center                        617408133     5     $112,620
Mineral County Juvenile Probation                         028950967     2      $19,790
Montana Dept of Justice                                   091932637     1      $11,340
North Dakota Dept. of Corrections and Rehabilitation      803873421     1      $64,650
Northern Oregon Regional Corrections Facilities           017133849     4           $0
Oklahoma City Water Resources Board                       005621370     4       $1,600
Sacramento Regional County Sanitation District            008016008     1         $584
Salt Lake International Airport                           126307961     1           $0
Sandoval County Detention Center                          626698596     3     $147,960
Town of Browning                                          023389781     1         $350
Town of Coulee Dam                                        014769314     2      $28,350
Town of Electric City                                     085189231     2      $28,350
United States Postal Service                              077631943     4      $17,871
United States Postal Service                              627469570     2       $3,000
United States Postal Service                              627875818     1       $2,994
University of Georgia                                     607393444     1       $6,750
University of Georgia                                     175360700     1      $10,570
University of Maryland Center for Environmental Science   021463831     1       $7,272
University of Tennessee                                   003387891     1       $9,500
University of Wyoming                                     069690956     1         $589
Virginia Polytechnic Institute and State University       003137015     2           $0
White Pine County Airport                                 039837328     2       $9,600
Yamhill Soil and Water Conservation District              111783663     1         $781
Totals:                                                               150   $3,278,610




                                                6
Appendix 3: Methodology


     The following methodology was used in conducting this inspection:

  1. Conducted the inspection in accordance with the Quality Standards for Inspections issued
     by the President’s Council on Integrity and Efficiency.

  2. FY 2009 DOI contract actions data was downloaded from the FPDS-NG website at
     http://www.fpds-ng.com on August 21, 2009.

  3. All contract actions having a “Contracting Officer Business Size Determination” of ‘S’
     were extracted from the dataset.

  4. The list of small business contract actions was sorted based on contractor name.

  5. The list was visually scanned, looking for contractor names of obviously large companies
     and government entities.

  6. The Dun & Bradstreet (DUNS) numbers for entities suspected to be ineligible for small
     business designations were checked against the ORCA and/or CCR federal databases.
     For five of the large business, including Home Depot and Sun Microsystems, there was
     no entry in ORCA for the associated DUNS number and CCR was relied on instead. Dell
     Computer Corporation did not have a record in ORCA or CCR.

  7. In some cases, company websites were reviewed for additional information.

  8. For entities confirmed to be ineligible for small business designations, the number of
     actions and total value of obligations was calculated. Actions were included regardless of
     the type of action. Some actions deobligated money from the contract, as evidenced by
     the negative amounts in Appendices 1 and 2. Other actions were of an administrative
     nature and did not result in any changes to funding.




                                              7
    Report Fraud, Waste, Abuse
      And Mismanagement
                    Fraud, waste, and abuse in
                 government concerns everyone:
                Office of Inspector General staff,
                Departmental employees, and the
               general public. We actively solicit
                allegations of any inefficient and
               wasteful practices, fraud, and abuse
             related to Departm ental or Insular area
            programs and operations. You can report
                allegations to us in several ways.




By Jl1aU:                 U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 4428 :MIB
                          1849 C Street. h'W
                          Washington, D.C. 20240

By Pho1lt::               24-Hour Toll Free         800-424-5081
                          Washington Metro Area     703 -487-5435

By Fax:                   703 -487-5402

By Il1fem et:             www.doioig.gov



                                                              Revi ,e d OOIOS
Attachment
                           United States Department of the Interior

                                           Office of Inspector General
                                                 Wa shin gton , D. C. 20240


                                                                               JUl - 1    m

Memorandum

To:            P. Lynn Scarlett
               Deputy Secretary

From:          Earl E. Devaney
               Inspector General

Subject:       Evaluation Report - Interior Misstated Achievement a/Small Business Goals by
               Including Fortune 500 Companies.
               (Report No. W-EV -MOI-0003-2008)

       This report presents our evaluation to determine if the Department of the Interior (001) and its
bureaus have accurately reported their small business contracting achievements (see Appendix I).

        We found about $5.7 million in awards to large businesses for which 001 received small
business credit in fiscal years 2006-2007. Several of the businesses are obviously large, such as Home
Depot, John Deere, Dell, Sherwin Williams, Starwood Hotels and Waste Management. These awards
were included in the accomplishments reported by DOl ' s Office of Small and Disadvantaged Business
Utilization and in the SBA Small Business Goaling Reports for fiscal years 2006 and 2007.

       The main reasons that contracts to large businesses have been incorrectly coded as small
business contracts relate to data entry mistakes, reliance on incorrect data, and a failure on the part of
contracting officials to verify business size reported in Central Contractor Registration.

        The intent of the Small Business Act is to aid, counsel, assist, and protect the interests of small
business concerns. However, unreliable data and data entry mistakes including errors caused by the
failure of contracting officers to consistently verify business size have not protected small business
interests. In order to improve the reliability and accuracy of the Department of the Interior' s small
business procurement data, we made three recommendations.
    Background ...... ..... ........ ........................ .... ............ ....... ........ ...................................................... .... . 1
    Results of Evaluation ..... .... ....... .................................... ..... .......... ...... .......... ....... ... ... .... ......... ......... 2
    Recommendations .......... ........ ....... ....... .................. ............................. ........... ... ........ .............. ... ..... 4
    Appendices
           Objective, Scope and Methodology .......... .... .... .. .. ...... .............. ........ .. .. .... .... ... ........ ........ ... 5
           Sites Visited .... ........ ................................. ......... .. .. .... .................... ..... .......... .......... ........... .. 6
           Prior Audit Coverage ...... .... .... ............................ ....... ........................ ...... ...... .. ... ... .... .... ..... 7
           Businesses Incorrectly Coded as Small Businesses ................................................... ......... 9
           Glossary ... ... ......... .. .. ........................ .................... .......... ......... ........ ...... .......... ...... ... ... ..... . 10




    Acronyms
               8(a) ................................................... ................... The 8(a) Business Development Program
               ANC .............. ........... .... ...... ...... .... ............... ........ .......... ...... ...... .Alaska Native Corporation
               CCR ... .. ... ... ...... ............. ..... ........... .......... ......... .. ...... ...... ...... Central Contractor Registration
               DOl ......... .......................................... ....................... .. ......... U.S. Department of the Interior
               DSBS ............................................... .................................. Dynamic Small Business Search
               DUNS ....................................................... ..................... Data Universal Numbering System
               FAR .... ..... ..... ... ........... ........ ........ ..... ... ... ................... .. ....... .. Federal Acquisition Regulation
               FPDS -NG ......................................... Federal Procurement Data System-Next Generation
               GAO ......... ....... .. .... ............ ... .... ........ ...... ........ ..... .......... Government Accountabi lity Office
               GSA ....... ........ .. .......... .... .. ...... .......... .. ..... .... .... .......... .... ..... General Services Administration
               HUBZone ... ...... ... .......... ......... ...... ............ ........... Historically Underutilized Business Zone
               OFPP .......................... .............................................. . Office of Federal Procurement Po licy
               ORCA ............................................. Online Representations and Certifications Application
               SBA ..... ..... .... ........... ............... ...... .. ... .............. ... ..... ... .......... Small Business Administration
               SDB ................ ................................... .... .. .... ... ......... ...... .... ... Small Disadvantaged Business




,

                                                                                       ii

I
Background
                                                           ~
                                                               C ENTRAL
In the Small Business Act of 1953, Congress
                                                           R C ONTRACTOR
                                                               R EGISTRATION
voiced its conviction that the Federal
Government should "aid, counsel , assist, and
protect ... the interests of small business
concerns .. .to insure that a fair proportion of the
total purchases and contracts or subcontracts for
property and services for the Government .. . be
placed with small business enterprises." Each
federal agency establishes an annual goal that
represents the maximum practicable opportunity
for small business concerns to pal1icipate in the
performance of contracts let by that agency .

Today, generally speaking, the term "small
business" encompasses the following groups of
businesses (see the Glossary for descriptions):
• Small Business concerns,
• Small Disadvantaged Business (SOB)
   concerns,
• Historically Underutilized Business Zone
   (HUBZone) concerns,
• 8(a) Program Small Business concerns,
• Service Disabled Veteran-Owned Small
   Business concerns,
• Veteran-Owned Small Business concerns,
   and
• Woman-Owned Small Business concerns.

Some small business groups, such as SOB,
HUBZone, and 8(a), are required to be formally
certified by the Small Business Administration
(SBA) in order to receive small business
benefits. Other small business groups merely
self-represent their business status.

Ongoing concerns over the accuracy of small
business goal achievement and the reliability of
procurement data in the Federal Procurement
Data System-Next Generation (FPDS-NG) ,
Central Contractor Registration (CCR) , and
Online Representations and Certifications
(ORCA) have been cited in previous reports by
the Government Accountability Office (GAO) ,
SBA' s Office of Inspector General , and SBA ' s
Office of Advocacy . These reports found that
agencies counted awards made to large and other

                                                       1
ineligible businesses towards their small                                     Fortune 500 Companies
business procurement goals (For a complete list                                                           Revenue
of prior audit coverage, see Appendix 3).                            Company                       Rank ($ billions
                                                                     Home Depot                        17         90.84
The Department of the Interior' s (001) Office of                    Dell                              34         57.10
Small and Disadvantaged Business Utilization
(Utilization Office) strives to improve and                          John Deere                        98         22.77
increase the Department's performance in                             Weyerhaeuse r                   105          22.25
utilizing small businesses as contractors and                        Xerox                           145          15.90
subcontractors. Last year, 001 bureaus awarded
                                                                     Waste Management                18 1         13.36
approximately $1.6 billion dollars to small
business entities. In fiscal year 2007, the                          Sherwin Williams                309           7.81
Department achieved its overall small business                       McGraw-Hili                     366           6 .26
goal.                                                                Starwood Hotels                 381           5.98
                                                                     These Fortune 500 companies were included in
Results of Evaluation                                                OOI's small business goal achievement for FY 2006-
                                                                     2007.

Unreliable data, including errors caused by the
failure of contracting officers to consistently                      policy memorandum states that each bureau is
verify business size, resulted in the inclusion of                   required to review a statistical sample of data
large businesses and other ineligible groups I ,                     each quarter and PAM will conduct an additional
including Fortune 500 companies, in the                              review at the Department level each quarter.
Department's small businesses goal achievement                       Despite these attempts, errors continue to be
data. Incorrect data brings into question the                        made and often go unnoticed .
accuracy of the small business goal achievement
reported by 001. The following table shows the                       We reviewed FPDS-NG data and fo und about
Fortune 500 companies that received small                            $5.7 million in awards to large businesses for
business contracts in fiscal years 2006 and 2007.                    which DOl received small business cred it in
A complete list of large businesses and other                        fiscal years 2006 and 2007. Several of the
ineligible groups that received small business                       businesses are obviously large, such as Home
contracts is provided in Appendix 4.                                 Depot, John Deere, Dell, Sherwin Wi lliams,
                                                                     Starwood Hotels and Waste Management. These
FPDS-NG is the only government-wide system                           awards were incl uded in the accompl ishments
that tracks federal contracts. In its reports over                   reported by DOl's Utilization Office and in the
the past several years, GAO has consistently                         SBA Small Business Goaling Reports for fiscal
reported FPDS-NG inaccuracies that resulted                          years 2006 and 2007.
from data entry errors.
                                                                     The main reasons that contracts to large busi ness
To deal with inaccuracies within the Department,                     have been incorrectly coded as small business
DOl ' s Office of Acquisition and Property                           contracts relate to data entry mistakes, reliance
Management (PAM) has issued a number of                              on incorrect data, and a failure on the part of
pol icy statements in its attempt to ensure the                      contracting officials to verify business size
accuracy of contract data in FPDS-NG. A 2004                         reported in CCR.


I.   Other ine ligible businesses include entities in the
     pub lic admini strat ion sector, such as Federal , State,
     and loca l governments as well as state universities.
     Small business size standards are not established for
     this sector.

                                                                 2
Data entry mistakes                                      contracts to divisions of Waste Management in
                                                         fiscal years 2006 and 2007. Of the six
FPDS-NG, which replaced the earlier generation           contracting officers contacted regarding small
FPDS in 2003 , was designed to eliminate many            business contracts to Waste Management, five of
types of data entry mistakes. For example, many          them said that Waste Management had been
of the data fields are now automatically                 incorrectly coded as a small business. The
populated from the CCR database. In addition,            contracting officers told us they did not check
P AM created policies for the bureaus and their          CCR prior to awarding the contract. If they had
contracting officers to ensure the data entered          checked CCR they would have discovered that
into FPDS-NG was accurate. In its June 2004              Waste Management was not a small business.
policy memorandum, PAM placed special
emphasis on correct vendor size determinations.                 "If contracting officers did their job
The policy also established a procurement data                 [FPDS-NG errors] wouldn't happen."
quality control plan which involves periodic
                                                                     -   DOl Contracting Officer
reviews of FPDS-NG data.

In FY 2006, PAM issued another policy calling            Further, we also found errors resulting from the
for greater attention to the accuracy of data            way in which GSA Schedule orders were entered
submitted by reporting and reviewing personnel,          in FPDS-NG. Contracting officers told us that
especially the business size status and all              GSA orders should be entered in FPDS-NG as
socioeconomic information. In FY 2007, PAM               delivery orders that reference the GSA contract,
required bureaus to confirm in their FPDS-NG             in which case the system automatically pre-fills
certifications that vendor size determinations           many of the fields with information from the
were correct in relation to the ORCA database.           GSA contract. In a couple of cases, we found
In addition, FAR requires contracting officers to        that DOL contracting officers had entered GSA
verify that a prospective contractor is registered       orders in FPDS-NG as purchase orders instead of
in CCR before awarding a contract.                       delivery orders, thereby bypassing the entry of
                                                         the GSA contract number. As a result, the
Despite these policies, contracting officers             contracting officers were able to make their own
erroneously recorded contracts to large                  determinations regarding business size. In one
businesses as small business contracts. For              case, GSA had correctly determined that the
example, John Deere and Waste Management                 vendor was a large business, yet the DOl
were coded as small businesses in FPDS-NG,               contracting officer was able to erroneously
and, as a result, contracts to these companies           record it as an SBA set-aside to a small business.
were included in DOl's achievement of its small          A contracting officer told us that they had
business goal. Contracting officers admitted that        recently received training regarding the proper
these companies are not small and were                   entry of GSA acquisitions as delivery orders,
incorrectly coded as small.                              rather than purchase orders.

        "Contracting officers often click                In several cases, contracting officers that we
      through mindlessly when entering                   spoke with corrected errors in FPDS-NG that
           contracts in FPDS-NG."                        were brought to their attention . Conversations
                                                         with contracting personnel highlighted the need
           -   DOl Contracting Officer
                                                         for increased attention to small business
                                                         procurements, including the importance of
In addition, we found that contracting officers          accurate FPDS-NG data entry.
failed to consistently check CCR prior to award.
For example, DOl issued several small business

                                                     3
Reliance on incorrect data                              business, it is imperative that the information
                                                        contained in CCR is correct and that contracting
In some cases, unreliable data was the result of        officers are consistent and diligent in verifying
contracting officers who relied on information in       vendor size.
CCR, ORCA, or FPDS-NG that was not correct.
Businesses are required to update their CCR             DOl contracting officers also rely on incorrect
profile each year; however, we found CCR                size determinations made by other agencies. For
registrations containing data that was either           interagency contracts and contracts for multi -
extremely outdated or simply incorrect.                 agency use, such as blanket purchase
                                                        agreements, indefinite delivery/indefinite
For example, we identified three divisions of           quantity contracts, GSA Schedule contracts, and
Xerox Corporation that are currently listed as          government-wide acquisition contracts, the size
small businesses in CCR. Two of the divisions           determination is made by the contracting officer
are also identified as small businesses in the          who awarded the initial contract. When that
Dynamic Small Business Search (DSBS)                    contracting officer incorrectly codes a contract as
database of CCR. Xerox Corporation ranks                small business, the error is reflected on all
# 145 on Forbes Fortune 500 companies and is            subsequent task orders. FPDS-NG prevents
not a small business. We also found that John           modification of size determinations so the only
Deere Construction & Forestry, a division of the        recourse that DOl contracting officers have is to
John Deere Company, is listed as a small                request that the contracting officer that initiated
business in CCR, ORCA, and DSBS. In its                 the original contract make the correction.
ORCA registration, John Deere Construction &            Contracting officers informed us that GSA is
Forestry claimed that it had fewer than 500             slow to respond to such requests.
employees and less than $2 million in annual
revenue. However, the John Deere Company                Recommendations
has about 50,000 employees and about $22
billion in annual revenue and does not qualify as       In order to improve the reliability and accuracy
a small business.                                       of DO I' s procurement data, we make the
                                                        following recommendations:
In yet another example, Dell Federal Systems
GP LLC, a subsidiary of Dell Incorporated, is           1. Contracting officers that question the size
identified as a small business in its CCR                  information reported in a CCR registration
registration. Dell Incorporated, however, ranks            should contact the appropriate Small
#34 on Forbes Fortune 500 with over $57 billion            Business Administration office to request a
in annual revenue.                                         size standard review.
In the examples above, contracting officers
                                                        2. The Department and bureaus should continue
recorded contracts to these vendors as " small
                                                           verifying and validating FPDS-NG data,
business" in FPDS -NG based on the information
                                                           paying special attention to business size
found in CCR. In the case of Dell Federal
                                                           determinations. This will include review of
Systems GP LLC, DOl issued 45 contract
                                                           FPDS-NG data during cyclical internal
actions in fiscal years 2006 and 2007, totaling
                                                           control reviews.
$281 ,490. Despite the fact that contracting
officers correctly determined Dell was a large
                                                        3. Training for contracting officers and business
business for 41 of those actions, the opportunity
                                                           utilization specialists should place more
exists for contracting officers to make mistakes
                                                           emphasis on the importance of correctly
by relying on incorrect information in CCR.
                                                           determining a business ' s size to insure the
Because contracting officers rely on CCR to
                                                           accuracy of the Department' s small business
determine whether or not a vendor is a small
                                                           goals.
                                                    4
Objective
To determine if the Department of the Interior and its bureaus have accurately reported their small
business contracting achievements.

Scope
The evaluation covered the Department of the Interior and its bureaus for fiscal years 2006 and 2007.
The review did not include procurements made by DOl on behalf of other agencies. SBA OIG was
consulted during the survey to determine specific areas for review.

Methodology
To accomplish the evaluation objective, we:

      •   Conducted the evaluation in accordance with the Quality Standards for Inspections issued by
          the President's Council on Integrity and Efficiency.

      •   Gained an understanding of the Department' s small business contracting program by
          interviewing Department and bureau officials at the headquarters, regional , and field office
          levels.

      •   Analyzed contract data in FPDS-NG for fiscal years 2006 and 2007. We reviewed 472
          contract actions in FPDS-NG representing .3% of total actions in fiscal years 2006 and 2007.
          We excluded contracts awarded by DOl on behalf of other federal agencies . Our analytical
          techniques included stratifying high dollar small business vendors and an alphabetical scan
          in FPDS -NG of small business vendors.

      •   Visited selected sites to review contract files and discuss small business contracting issues
          with contracting officials. We reviewed 52 contract files during site visits. We selected sites
          based on preliminary assessments that identified the level of small business contracting at
          each contracting office (See Appendix 2).

      •   Reviewed management processes for verifying and validating the reliability of data in the
          Federal Procurement Data System-Next Generation.
                          Bureau of Indian Affairs
Central Office, Office of Acquisition and Property Management, Reston, VA

                     Bureau of Land Management
                 California State Office, Sacramento, CA
                  Colorado State Office, Lakewood, CO

                        Bureau of Reclamation
              Mid-Pacific Regional Office, Sacramento, CA

                    U.S. Fish and Wildlife Service
             Headquarters, Washington Office, Arlington, VA
              Mountain-Prairie Regional Office, Denver, CO

                     Minerals Management Service
                       Headquarters, Herdon, V A

                          National Park Service
               Intermountain Regional Office, Denver, CO
                    Pacific West Region, Oakland, CA

                       Office of Surface Mining
                     Headquarters, Washington, DC
             Division of Financial Management, Denver, CO

                           Office of Secretary
    Office of Acquisition and Property Management, Washington, DC
 Office of Small and Disadvantaged Business Utilization, Washi ngton, DC
National Business Center Acquisition Services Directorate, Washington, DC
 National Business Center Acquisition Services Directorate, Herndon, V A
  National Business Center Acquisition Services Directorate, Denver, CO

                        U.S. Geological Survey
               Headquarters, National Center, Reston, VA
            Branch of Acquisition and Grants, Sacramento, CA
DOl OIG, SBA OIG, SBA Office of Advocacy, and GAO recently issued reports that were applicable
to our evaluation. These reports are listed below.


DIG
February, 2008 - Sole Source Contracting: Culture 0/ Expediency Curtails Competition in
Department of the Interior Contracting (W-EV-MOA-0001-2007). The OIG found that the percentage
of contracting dollars spent by DOl on 8(a) sole-source contracts was significantly higher than the
government as a whole. Acquisition officials stated that sole-source contracts to 8(a) firms are faster
and easier and help their bureaus meet small business goals. 010 found that GovWorks circumvented
competition among 8(a) firms by awarding consecutive contracts to the same contractor for just under
the competition threshold. 01G also found that NPS improperly split an 8(a) contract into multiple
contracts to avoid competing the contract among other 8(a) firms .

SBA DIG
June, 2007 - Size Determinations Made by District Offices (7-2 7). SBA OIG found the district
offices surveyed reported that they generally did not follow SBA regulations when determining
whether companies qualified as small for 8(a) procurements. Under SBA regulations, size
determinations must be based on payroll records from the preceding 12 months for employee-based
size standards, and on tax returns for revenue-based standards.

March, 2007 - The Central Contractor Registration Needs Large Business and Small Business
Designation Improvements (6-18). SBA OIG found that CCR can contain contradictory size
information on companies. CCR has two sections that reflect a company's size information and the
information in one section can mistakenly contradict the information in the other section. This occurs
because there are no checks in the CCR registration process to ensure consistency between the two
sections.

March, 200S - Review o/Selected Small Business Procurements (5- 16). The SBA 010 found that, of
the contracts reviewed, one small business set-aside contract was improperly awarded, and multiple
award contracts were issued based on improper certification.

February, 200S - Large Businesses Receive Small Business Awards (5-15) . SBA 01G found that
flaws in the federal procurement process allow large firms to receive small business awards and
agencies to receive small business credit for contracts performed by large firms.

February, 200S - SBA Small Business Procurement Awards Are Not Always Going To Small
Businesses (5- J4). SBA oro found that large business contract actions were reported as small business
awards . SBA determined this was happening based on the following: "life of contract" , inconsistent
regulations, and GSA Schedules problems.
SBA Office of Advocacy
December, 2004 - Analysis of Type of Business Coding for the Top 1, 000 Contractors Receiving
Small Business Awards in FY 2002 (Report was prepared by Eagle Eye Publishers, Inc. under contract
#SBAHQ-02-M0465). Of the top 1,000 small business contractors in FY 2002, Eagle Eye Publishers'
identified 44 parent companies as either large firms or "other." Contracts to these two groups taken
together had a total value of $2 billion. The coding problem could have been a result of erroneously
assigned type-of-business codes, a large firm ' s acquisition of a smaller firm during the fiscal year, or a
small firm growing out of its size classification.

GAO
April, 2006 - Contract Management: Increased Use ofAlaska Native Corporations' Specia/8(a)
Provisions Calls for Tailored Oversight (GAO-06-399). GAO found that contracting officials did not
always comply with certain requirements, such as notifying SBA of contract modifications and
monitoring the percent of work that is subcontracted. Obligations to Alaska Native Corporations
(ANC) quadrupled between 2000 and 2004. Contracting officials told GAO that using ANC firms
under the 8(a) program allows them to quickly, easily, and legally award contracts for any value.
According to GAO, SBA failed to consistently determine whether awards to 8(a) ANC firms resulted
in other small businesses losing contract opportunities. In general, the contracting officers that GAO
spoke to were confused about whose responsibility it is to monitor compliance with subcontracting
limitations.

May, 2003 - Contract Management Reporting of Small Business Contract Awards Does Not Reflect
Current Business Size (GAO-03 -704T). GAO found the predominant cause for the misreporting of
small business achievements is that federal regulations generally permit a company to be considered as
a small business over the life of the contract-even if they have grown into a large business, merged
with another company, or been acquired by a large business. In today ' s federal contracting
environment, contracts can extend up to 20 years. In addition, agencies relied on various databases
containing inaccurate information on current business size.

Acquisition Advisory Panel
January, 2007 - Report of OMB 's Acquisition Advisory Panel to the Office of Federal Procurement
Policy and the United States Congress . The Acquisition Advisory Panel found that inaccurate user
data entry compromised the usefulness of FPDS-NG data. The Panel uncovered impossible pairings of
supply and NAICS codes, GSA Schedule orders incorrectly identified as noncommercial, and GSA
Schedule orders that were reported as something other than a GSA Schedule order. The Panel
recommended that Inspector General audits should include sampling to compare FPDS-NG data to the
official contract file. They recommended the sampling be done on an ongoing basis, to provide
oversight in this area.
                                 Ineligible Large Businesses
Vendor Name                                                               FY06             FY07
Dell Incorporated                                                           $51 ,149         $350,827
GTSI Incorporated                                                           $14,744          $157,940
Home Depot                                                                        $0           $7 , 182
John Deere Company                                                         $390,881          $227,137
McGraw-Hili Companies                                                       $14, 140                 $0
Ricoh Corporation                                                           $12,662            $7,053
Sherwin Williams Company                                                    $10,002                  $0
Starwood Hotels & Resorts Worldwide , Incorporated                           $7,220            $4,158
Waste Management, Incorporated                                              $26,677          $217,678
Weyerhaeuser Company                                                         $4,013            $2, 151
World Wide Technology                                                             $0          $12,263
Xerox Corporation                                                           $31 ,813          $43 ,341
                                                          Subtotal:        $563,301        $1,029,730

                                 Ineligible Other Businesses
Vendor Name                                                               FY06             FY07
Arizona Department of Game & Fish                                                  $0          $5 ,000
Montana Department of Justice                                                      $0         $17 ,010
Native Village of Savoonga                                                    $3 ,500                $0
Native Village of Selawik                                                     $7,843           $8,750
Navajo Nation Tribal Government                                               $2,500           $5 , 105
Navajo Tribal Utility Authority                                           $2,929,935         $987,592
University of Cincinnati                                                           $0          $5 ,525
University of Georgia                                                              $0          $9,730
University of Illinois                                                             $0          $5,536
University of Maine System                                                         $0         $13 ,044
University of Maryland Center for Environmental Science                            $0         $21 ,561
University of Montana System                                                  $9,744                 $0
University of North Carolina at Greensboro                                         $0         $10,241
University of Wisconsin Engineering Technical Services                             $0          $4,083
University of Wisconsin System                                                     $0         $14,125
University of Wyoming                                                              $0          $1 ,500
United States Geological Survey                                              $10,000                 $0
Ute Mountain Ute Tribe                                                       $75 ,000                $0
Wyoming State Veterinary Laboratory                                             $815                 $0
                                                          Subtotal:       $3,039,337       $1,108,802

                                                             Total:       $3,602,638        $2,138,532


*As determined from our review of FPDS-NG data. Some vendors include affiliates with separate DUNS
numbers .
8(a) - The 8(a) Business Development Program offers a broad scope of assistance to socially and economically
disadvantaged firms. 8(a) firms automatically qualify for SOB certification. Status is determined through
formal certification with SBA .

Blanket Purchase Agreement - A blanket purchase agreement is a simplified method offilling anticipated
repetitive needs for supplies or services by establishing "charge accounts" with qualified sources of supply (FAR
Part 13 .303).

HUBZone - Historically Underutilized Business Zone Empowerment Contracting Program stimulates
economic development and creates jobs in urban and rural communities by providing contracting preferences to
smal l businesses. HUBZone firms must employ staff who live in a HUBZone and must maintain a principal
office in one of these specially des ignated areas . Status is determined through formal cert ification with SBA.

NAICS - The North American Industry Classification System (NAICS) is an industry classification system
used by the statistical agencies of the United States for classifying business establishments. The NAICS code
describes what is being purchased and is required on every acquisition above $2,500. The contracting officer
determines the appropriate NAICS code based on a thorough review of the acquisition documentation.

Office of Small and Disadvantaged Business Utilization - Establishment of an Office of Small and
Disadvantaged Business Uti li zation is required for each procuring federal agency by the SBA Act.

Set-Asides - Small business set-asides are procurements reserved exclusively for small business participation
and includes the Small Business Reserve, set-asides above the simplified acquisition threshold , the Small
Business Competitiveness Demonstration Program, the HUBZone Empowerment Contracting Program, and the
Service Disabled Veteran Owned Small Business Program. The FAR requires that simplified acquisitions, with
a value between $3 ,000 and $100,000, be set-aside for small businesses .

Size Standard - The term " size standard" describes the numerical definition ofa small business. In other
words, a business is considered " small " if it meets or is below an established size standard. SBA has estab lished
two widely used size standards ; 500 employees for most manufacturers and $6.5 million in average annual
receipts for most non manufacturing industries. However, many exceptions exist.

Small Business - A small business is a concern that is organized for profit, with a place of business in the
United States, and which operates primarily within the United States or makes a significant contribution to the
U .S. economy through payment of taxes or use of American products, materials, or labor. Further, the concern
cannot be dominant in its field , on a national basis . Finally, the concern must meet the numerical small business
size standard for its industry. SBA has established a size standard for most industries in the U.S. economy .

Small Disadvantaged Business - A Small Disadvantaged Business (SOB) is a small business concern that is
at least 51 percent owned by one or more individuals who are both socially and economically disadvantaged.
SBA certifies SOBs to make them eligible for special bidding benefits.




Sources: Guide to SBA 's Definitions o/Small Business, Integrated Acquisition En vironment Frequently Asked Questions,
         and DOl Utili::ation Office ·s Small Business Pocket Guide.
       Report Fraud, " .Taste, Abuse
          .I..\.nd l\.:Iismanagement
                     Fraud. \vaste. and abu~e in
                 gOye1111l1ent concell1S evelyolle:
                 Office of Inspector General staff.
                 Departmental employees. and the
                general public. \Ve actively solicit
                 allegations of any inefficient and
               \vasteful practices. fraud. and abuse
             related to Departmental or Insular area
            programs and operations. You can report
                 allegations to us ill seyeral v\'avs.
                    ~                                  ~




By _'\fa il :             U.S. Department of the Interior
                          Office of Inspector General
                          i'v1ail Stop 44~8 YlIB
                           1849 C Street. 1\"\V
                          \Vashington, D.C. 20240

~l'   Phone:              24-Hour Toll Free                800-424-5081
                          \A/ashington }"'letro Area       703-487-5435

By Fax:                   703-487-5402

By Infemet:               WW\\-' .doioig.go\'




                                                                    ~e~ised ~6:O8
